(f*

CERTIFICATE OF COMPLIANCE
No.
Blanche Brown
Petitioner,
V
Police Chief B. Joseph Friel, Valley Township Supervisors, et al
Respondent

As required by Supreme Court Modiffied Page Limitation of 40 pages, I certify that the
petition for a writ of certiorari contains 37 pages, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 23, 2021

Blanche Brown, Petitioner

